TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Exempt Organizations Function
                     Should Take Action to Limit the
                 Disclosure of Social Security Numbers
                on Publicly Available Tax-Exempt Returns



                                      May 4, 2012

                          Reference Number: 2012-10-046




 The Treasury Inspector General for Tax Administration has designated this audit report
    as Sensitive But Unclassified pursuant to Chapter III, Section 23 of the Treasury
    Security Manual (TD P 71-15) entitled, “Sensitive But Unclassified Information.”
  Because this document has been designated as Sensitive But Unclassified, it may be
     made available only to those officials who have a need to know the information
 contained within this report in the performance of their official duties. This report must
 be safeguarded and protected from unauthorized disclosure; therefore, all requests for
 disclosure of this report must be referred to the Disclosure Branch within the Treasury
           Inspector General for Tax Administration Office of Chief Counsel.


                                Sensitive But Unclassified




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                    Sensitive But Unclassified
                   The Exempt Organizations Function Should Take Action
                     to Limit the Disclosure of Social Security Numbers
                          on Publicly Available Tax-Exempt Returns


                                                                             Appendix

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Cheryl J. Medina, Acting Audit Manager
William Simmons, Lead Auditor
Donald J. Martineau, Auditor
Carol A. Rowland, Auditor




                                    Sensitive But Unclassified              Page 2
